No. 20-1752
IN THE

Supreme Court of the United States
DEVAR HURD,
v.

Petitioner,

STACEY FREDENBURGH,
Respondent.
CERTIFICATE OF WORD COUNT
Oren L. Zeve, a member of the bar of this Court, certifies as required by Supreme
Court Rule 33.1(h) that the accompanying Motion to Affirm for Government
Appellees contains 5,858 words excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on August 16, 2021,
.

/s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

